<html>
<title> - RISKY BUSINESS: EXAMINING GAO'S LIST OF HIGH-RISK GOVERNMENT PROGRAMS</title>
<body><pre>[Senate Hearing 114-413]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-413

   RISKY BUSINESS: EXAMINING GAO'S 2015 LIST OF HIGH RISK GOVERNMENT 
                                PROGRAMS

=======================================================================

                                 HEARING

                               BEFORE THE 

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                           FEBRUARY 11, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                         U.S. GOVERNMENT PUBLISHING OFFICE
94-274 PDF                     WASHINGTON : 2016                         
_________________________________________________________________________________________   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1b6a1be91b2a4a2a5b9b4bda1ffb2bebcff">[email&#160;protected]</a>  

     
        
        
        
        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
       Patrick J. Bailey, Chief Counsel for Governmental Affairs
              Gabrielle A. Batkin. Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
     Troy H. Cribb, Minority Chief Counsel for Governmental Affairs
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                           
                        
                           
                           
                           
                           C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Lankford.............................................    13
    Senator McCaskill............................................    17
    Senator Baldwin..............................................    20
    Senator Heitkamp.............................................    22
    Senator Peters...............................................    25
    Senator Ayotte...............................................    27
Prepared statements:
    Senator Johnson..............................................    39
    Senator Carper...............................................    40
    Senator Ernst................................................    42

                               WITNESSES
                      Wednesday, February 11, 2015

Hon. Eugene L. Dodaro, Comptroller General of the United States, 
  U.S. Government Accountability Office; accompanied by Cynthia 
  Bascetta, Managing Director, Health Care; Debra A. Draper, 
  Director, Health Care; Phillip Herr, Director, Physical 
  Infrastructure Issues; David Maurer, Director, Homeland 
  Security and Justice; J. Christopher Mihm, Managing Director, 
  Strategic Issues; David A. Powner, Director, Information 
  Technology; James White, Director, Strategic Issues; and 
  Gregory Wilshusen, Director, Information Technology............     4
Eugene Dodaro, prepared statement................................    43

                                APPENDIX

GAO Report submitted by Senator Baldwin..........................    78
Statement submitted by the Department of Homeland Security.......   142
Information submitted by Mr. Dodaro for the Record...............   148
Questions submitted for the Record from Mr. Dodaro...............   149

 
 RISKY BUSINESS: EXAMINING GAO'S LIST OF HIGH-RISK GOVERNMENT PROGRAMS

                              ----------                              


                      WEDNESDAY, FEBRUARY 11, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Ayotte, Ernst, Sasse, 
Carper, McCaskill, Baldwin, Heitkamp, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order.
    I want to welcome everyone. I appreciate my colleagues 
coming here and all the members of the audience and, of course, 
Comptroller General Eugene Dodaro and other members of the 
Government Accountability Office (GAO).
    This is an important hearing. There is a reason this is the 
third hearing that we are having in this Congress on this 
Committee. The good work that GAO has done is demonstrated by 
the fact over the last 2 years, just recommendations 
implemented from previous High-Risk Lists have generated $40 
billion of savings over the last 2 years. I mean, that is a 
remarkable figure.
    Today, we are going to be talking about the update to the 
list. There is some good news. I am happy to report that the 
Department of Homeland Security (DHS) management has made solid 
progress and there are some prospects of DHS coming off that 
list. We are looking forward to that. There has been progress 
made in terms of the Department of Defense (DOD) contract 
management, progress made with the Food and Drug Administration 
(FDA's) oversight of medical devices.
    Unfortunately, there has been some expanded scrutiny--tax 
code enforcement and fraud. I appreciate the fact that the GAO 
is pointing out the fact that cybersecurity is a real issue, a 
real threat, and that is a top priority of this Committee, to 
start taking pieces of legislation or be involved in the 
passage of legislation that will address the first step in 
providing some measure of additional cybersecurity, and that 
would be information sharing. So, I appreciate that.
    I hate to report that there are some new areas added. 
Information technology (IT) acquisition--that is really not 
much of a surprise, but it is very disappointing to hear that 
Veterans Affairs (VA) Health Care, has been added to this, and 
this hits pretty close to home with both Senator Baldwin and 
myself.
    We have a facility in Tomah. Over the last couple of years, 
we have lost three veterans to the system. Two died with deaths 
related to potential opiate drug over-prescription, and not 
even a month ago, a 74-year-old veteran--I am not a doctor, but 
pretty obvious stroke symptoms sat and waited in a waiting room 
for 3 hours to be treated, probably had a stroke, was wheeled 
into an examination room, waited another 45 minutes, had a 
massive stroke, was finally ambulanced to a different hospital. 
The CT scanner was apparently not operational, so they could 
not administer anticoagulant drugs, and this gentleman died 2 
days later.
    So, it is noteworthy to understand that GAO has been making 
recommendations to the Veterans Health Care System for a number 
of years. There are more than 100 recommendations that have not 
been implemented, about 80 percent of the recommendations.
    So, certainly what I would like to get out of this 
Committee, out of this hearing and hopefully out of Committee 
action, is coming up with some kind of method, some kind of 
control to make sure that these good recommendations that save 
the taxpayer so many dollars, that could potentially save 
lives, are actually implemented. I mean, that has to be a top 
priority of this Committee. Let us utilize the guidepost of the 
GAO High-Risk List and the other good work they do and let us 
make sure these recommendations are finally implemented at the 
agency level. It will save money. It will save lives.
    So, with that, I would like to turn it over to our Ranking 
Member, Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Mr. Chairman. Thanks for 
convening us today.
    And, to Gene Dodaro and to the many members of your team 
that are in the audience and may be listening or watching 
outside of the building, we want to just say a big thank you to 
all of them for giving us a great to-do list. My wife is a big 
believer in to-do lists, and every morning, I go down to the 
kitchen and there on the island in the kitchen, usually is a 
to-do list. Sometimes it is for her. Sometimes it is for me. 
And, what you have provided, you and your colleagues at GAO 
have provided us, is an incredibly important to-do list, and 
you do this every 2 years. We take that responsibility on your 
part seriously and we take the responsibility just as seriously 
for ourselves.
    It is interesting how you can make progress in addressing 
any number of the areas that need to be addressed within that 
to-do list you are providing for us. We can hold a hearing, and 
over the years, we have been able to make real progress just by 
scheduling a hearing and bringing folks to this table, in some 
cases, folks who are in charge of acquisitions at the 
Department of Defense for weapons systems. Just hold a hearing. 
In other cases, we send letters, and they can have an amazing 
effect.
    We not only will introduce legislation, we will simply call 
the Secretary of the Department or the senior person within the 
Department and say, we want to meet with you and here is why. 
And, you and your team are complicit in a very positive way in 
all of that.
    For those of you who have joined us, we had a press 
conference here early on and I talked about from time to time 
people say to me, ``I do not mind paying taxes. I just do not 
want you to waste my money.'' I do not want to waste their 
money, either, and this Committee is committed to making sure 
that we continue to fight. It is like whack-a-mole, and the 
government is so big, and there are so many people trying to 
defraud our government for money.
    I have an entire statement I want to make part of the 
record,\1\ but I just want to say, the kind of passion and 
commitment that we have brought to addressing the entire to-do 
list remains. Tom Coburn is gone, but that spirit that he 
brought to this Committee for all those years is still being 
nurtured by me and, I think, by Ron, and by a new Member from 
Oklahoma. A lot of work to do, and we are going to work it 
together.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 40.
---------------------------------------------------------------------------
    I will say one other thing that I think bears repeating. I 
am a big believer in leverage. When I chaired with Tom and led 
a Subcommittee of this Committee, we tried to be effective in 
addressing waste, fraud and abuse in government, and we found 
that we could be a lot more effective as a Subcommittee or this 
full Committee if we partnered with you and with your team. We 
found that we could be more effective if we would partner with 
the literally dozens of Inspector Generals (IGs) across the 
Federal Government. We found that we could be more effective if 
we would partner with the Office of Management and Budget 
(OMB), with the nonprofit organizations that are committed to 
reducing waste in government, and it works. It actually works.
    It is a little bit like changing the course of an air craft 
carrier, but if you stick with it, you do not give up, you can 
change the course of an air craft carrier, and we can change 
the course of our government and improve the service that we 
provide for the people of this country.
    So, we look forward to hearing from you, anxious to watch 
you read your notes yet again--actually, he never reads his 
notes, and is one of the most amazing people I have ever seen 
testify in the Congress. I always say this and hope maybe it 
will spook him so that he will forget where he is. [Laughter.]
    I remember Winston Churchill used to give speeches before 
the House of Parliament and he would, like, memorize his 
speeches, and one day he was giving a speech, a terrific 
speech--you know how good he was--and he forgot his speech and 
he lost his way. So, I keep waiting for that to happen with 
you---- [Laughter.]
    But I have been calling all these years, Gene, and you 
never do, so I do not want to jinx you today, but thanks very 
much for being here and talking with us and we look forward to 
this conversation.
    Chairman Johnson. That is that accounting background, 
right?
    I should have mentioned earlier, I do have a formal opening 
statement that I would like to enter into the record.\2\ 
Without objection, so ordered.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Johnson appears in the 
Appendix on page 39.
---------------------------------------------------------------------------
    It is the tradition of this Committee to swear in 
witnesses, so Mr. Dodaro and any other GAO employees that might 
assist in the testimony, please rise. Raise your right hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Dodaro. I do.
    Ms. Bascetta. I do.
    Ms. Draper. I do.
    Mr. Herr. I do.
    Mr. Maurer. I do.
    Mr. Mihm. I do.
    Mr. Powner. I do.
    Mr. White. I do.
    Mr. Wilshusen. I do.
    Chairman Johnson. Please be seated. Mr. Dodaro.

 TESTIMONY OF HON. EUGENE L. DODARO,\1\ COMPTROLLER GENERAL OF 
   THE UNITED STATES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
  ACCOMPANIED BY CYNTHIA BASCETTA, MANAGING DIRECTOR, HEALTH 
  CARE; DEBRA A. DRAPER, DIRECTOR, HEALTH CARE; PHILLIP HERR, 
    DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES; DAVID MAURER, 
 DIRECTOR, HOMELAND SECURITY AND JUSTICE; J. CHRISTOPHER MIHM, 
MANAGING DIRECTOR, STRATEGIC ISSUES; DAVID A. POWNER, DIRECTOR, 
   INFORMATION TECHNOLOGY; JAMES WHITE, DIRECTOR, STRATEGIC 
ISSUES; AND GREGORY WILSHUSEN, DIRECTOR, INFORMATION TECHNOLOGY

    Mr. Dodaro. Thank you very much, Mr. Chairman. Good morning 
to you, Ranking Member Senator Carper, and Members of the 
Committee. I am very pleased to be here today to discuss the 
update to GAO's High-Risk List.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dodaro appears in the Appendix on 
page 43.
---------------------------------------------------------------------------
    We provide this update with the beginning of each new 
Congress to help the Congress set its priorities for oversight 
and to help the Administration focus on areas that we consider 
to be of highest risk for either fraud, waste, abuse, or 
mismanagement, or in need of broad-based transformation across 
the government.
    This year, we are reporting solid, steady progress in the 
vast majority of the High-Risk Areas that we have had on the 
list to date. We are also providing ratings for the first time 
against each High-Risk Area's status and progress getting off 
the list.
    In order to get off the list, High-Risk Areas need to meet 
five criteria. They need to have top leadership commitment. 
They need to have the capacity, the resources, and the people 
with the right skills to get off the list. They have to have a 
good corrective action plan that goes to the root cause of the 
problems. They have to have a monitoring effort with interim 
milestones and metrics to make sure they are making progress. 
And then they have to demonstrate that they are actually 
beginning to fix the problem. They do not have to have it 100 
percent fixed to get off the list, but they have to have 
tangible progress that they are on the right path and are 
actually fixing the problem.
    Now, of the 30 areas that were on the list based on our 
last update, 18 of those areas have at least partially met each 
of the five criteria for coming off the list. Eleven of those 
areas have fully met at least one or more of the criteria and 
partially met the others. So, there is good, steady progress as 
we report.
    In two areas, we report enough progress that we are 
actually narrowing the scope of the High-Risk Area. First, in 
FDA's oversight of medical devices, in the area of recalls, we 
were concerned that they were not consistently applying recall 
criteria, actually ensuring that the recalls were effective, 
and did not analyze recall data over time to identify potential 
trends that warranted some alerts to the industry. They are now 
doing that. They have analyzed 10 years of data. They are 
ensuring greater consistency in having recalls. They are 
documenting whether the recalls have occurred and were 
effective.
    And, also, we have seen progress in their ability to 
process new device requests. In the past, they were slow to 
implement legislation that provided a dual-track process where 
certain devices that were similar to those on the market could 
go to an expedited review, but new devices that passed the 
highest risks needed to go through a more stringent review. 
They were slow to implement the Act. They have now corrected 
that and they are on track to implement the legislation by this 
year.
    They still have issues in ensuring the adequacy and the 
safety of medical products and devices in a global marketplace. 
Right now, 80 percent of the active ingredients for 
prescription drugs, 40 percent of finished drugs, and about 
half of medical devices come from about 150 countries around 
the world. So we have encouraged them to move from an oversight 
process focused on overseeing domestic production to overseeing 
what is now a global marketplace for drugs and devices, and 
also to focus on drug shortages. They still have work to do in 
that area, and many of these are life-sustaining and life-
saving drugs that are of concern.
    We have also seen enough progress in the contract 
management area at DOD to warrant narrowing that area, 
particularly as it relates to contracting tools and techniques. 
This is to ensure that they do not use overuse undefinitized 
contracts and time and materials contracts, which are more 
risky to the government. They also plan to ensure more 
competition and they have better oversight over those processes 
now. But, the remaining areas they need to fix are: (1) service 
acquisitions, (2) ensure they have an acquisition workforce 
commensurate with the challenges associated with that, and (3) 
they have to make improvements in operational contracting where 
they are using contracting to support military operations in 
the theater.
    We have also noted improvements in the Department of 
Homeland Security management functions. That area has been on 
the list for a number of years. We are very pleased with the 
leadership commitment of that Department and the Secretary, 
Deputy Secretary, and Under Secretary for Management. They have 
a very good corrective action plan and they are starting to 
make progress. They have received clean opinions on their 
financial statements for 2 years in a row right now, but there 
are other areas that they need to fix. They have fixed about 9 
of the 30 areas that we have identified and they have agreed it 
needs to be fixed. So, they have to fix the remaining 21 areas, 
but they have a good plan. They just have to execute the plan 
over a period of time, particularly in the acquisition area and 
some remaining areas in financial management, particularly on 
internal controls.
    Now, we are adding two new areas. First is VA's provision 
of health care services to our veterans. We have been very 
concerned about this area and really have five overarching 
themes of concern. One is ambiguous policies and inconsistent 
processes over time. The fact that they have inadequate 
oversight and accountability mechanisms. They have information 
technology challenges that they have to solve. There is 
inadequate training of VA staff and unclear resource needs and 
allocation processes. And, I can talk more about this in the Q 
and A session.
    Congress has passed legislation providing them with 
additional money, $15 billion, but the legislation has to be 
implemented effectively. And, as Senator Johnson has mentioned, 
we have over 100 recommendations that we have made to the VA 
that have not yet been fully implemented and they need to do 
so.
    The other area, new, that we are adding is IT acquisitions 
and operations. The report that we are providing today outlines 
a litany of failed IT modernizations in the government, where 
hundreds of millions of dollars, and in some cases billions of 
dollars, have been spent, but the effort has been terminated or 
failed. There is even a longer list of areas that have cost 
overruns, schedule slippages, or provide less functionality 
than initially intended, thereby not really improving 
operations in the agencies that much.
    Congress passed some legislation late last year, the 
Federal Information Technology Reform Act, that gives Chief 
Information Officers (CIOs) additional authorities and puts in 
place in statute a number of good practices that we have 
identified, but it has to be implemented effectively. 
Typically, we have found these areas lack discipline and 
requirements management and project management to actually 
manage IT acquisitions effectively.
    We also talk about operations. Fifty-eight of the $80 
billion that is spent each year is on operations and support of 
legacy systems that we believe may not be needed, may be 
duplicative, and may no longer be performing as efficiently and 
effectively as possible, particularly given opportunities in 
the marketplace to get IT services at less cost.
    In this new High-Risk Area, over the last 5 years alone, we 
have made 737 recommendations and only 23 percent have been 
fully implemented. So, again, Congress has made efforts in VA 
and IT, but the efforts need to be monitored. Congressional 
oversight is imperative, in my opinion. And, the agencies need 
to make reforms.
    We are expanding two areas. One is in tax administration. 
We had been focused on the next tax gap, which the annual 
latest estimate is $385 billion between taxes owed and taxes 
paid. But, identity theft has become a growing problem, so we 
are adding that to the list. The Internal Revenue Service (IRS) 
was successful in stopping about $24 billion last year, but 
they missed, on their estimate, about $5.8 billion in fraud. We 
have some potential action to remedy this situation and 
recommendations for the Congress and the IRS we can talk about 
in the Q and A session.
    The last area is cybersecurity. We initially designated 
computer security across the entire Federal Government at High-
Risk in 1997. In 2003, we added critical infrastructure 
protection, because most of the computer assets are in the 
private sector. But, now, we are adding privacy to the High-
Risk issue as more personally identifiable information (PII) is 
being collected. The number of incidents at the Federal 
Government level involving inadequate controls over IT, 
controls over the personally identifiable information, has more 
than doubled in the last 5 years. There have been a lot of 
high-profile incidents in the private sector, as well. Privacy 
law was passed in 1974. We believe it needs to be updated to 
provide greater controls, and we can talk about our 
recommendations.
    In closing, I would like to recognize that the progress 
that we did note in many of the areas was due to the Congress 
taking action, passing legislation. For example, five bills 
alone in the cybersecurity area, but more is needed, as we have 
talked about, in that area. Top leaders in the agencies and OMB 
have been focused on our High-Risk list. I have regular 
meetings with OMB Deputy for Management Beth Cobert and top 
officials in the agencies to discuss the High-Risk Areas and 
what needs to be done specifically to get off the list and to 
make continued progress.
    I appreciate the opportunity to be here today to discuss 
this further and look forward to working with this Committee. 
Fixing these high-risk problems as the potential to save 
billions of dollars, improve services to the public, and 
enhance trust and confidence in the Federal Government's 
activities.
    So, thank you very much for the opportunity to be here. I 
would be happy to answer questions.
    Chairman Johnson. Well, thank you, Mr. Dodaro.
    Let me start with an apology. You are so familiar to me--
you are the face of the GAO--I forgot to introduce you to those 
that may not be as familiar, so let me do it right now.
    Eugene Dodaro has been the Comptroller General of the U.S. 
Government Accountability Office since 2010 and has more than 
40 years' experience at the agency, including as Acting 
Comptroller General, Chief Operating Officer, and Head of the 
Accounting and Information Management Division. So, you have 
extensive knowledge and we certainly appreciate your service.
    Let us talk dollars. We are both accountants. I was really 
pleasantly surprised at the answer I got when I asked for how 
much have we saved just in the last couple of years and the 
figure was $40 billion. I will not investigate that. We will 
take you at your word.
    If we were to implement the recommendations on the current 
High-Risk List--I realize this is impossible to probably 
answer, but I would like you to take a stab at it--what would 
you think might be the potential savings?
    Mr. Dodaro. Well, I will just give you two benchmarks that 
would give you some idea of the magnitude of the potential 
savings. Improper payments this past year alone in the Medicare 
program were $60 billion. In Medicaid, it was over $17 billion. 
And, in the Earned Income Tax Credit, it was over $14 billion. 
So, any effort to reduce the size of those improper payments 
and ensure better integrity in the payment process can yield 
billions, if not more, in savings, right in those three 
programs alone on the list.
    The DOD weapons acquisitions area has hundreds of billions 
of dollars in potential investments. Some of the $40 billion in 
savings have come from identifying weapons systems that were 
not ready to go into production, that would have wasted funds, 
and DOD or the Congress made decisions to reduce the 
procurement orders for those areas.
    And, let us take the tax gap alone. Any amount reducing one 
percent the tax gap--right now, there is 84 percent compliance, 
so we have about 16 percent noncompliance in the country, and 
it goes across the range of different taxpayers, whether it is 
business or individual taxpayers or small businesses. Any one 
percent increase in collection of taxes owed is $4 billion 
right there.
    So, there is lots of money on the table that is not being 
collected that should be collected. There is money being paid 
that should not be paid. So, there are plenty of opportunities 
to save money in these areas.
    And, I am particularly concerned that in the Medicare and 
Medicaid area, because they are the fastest growing Federal 
programs, if the Centers for Medicare and Medicaid Services 
(CMS) does not get a better handle on these areas, that problem 
will get a lot worse before it will get better.
    Chairman Johnson. Well, my back-of-the-envelope 
calculation, you are already talking about close to $100 
billion just right then and there.
    I know Senator Carper talked about Senator Coburn earlier 
using GAO reports. Senator Coburn always used to publish the 
``Waste Book,'' unfortunately, after the money was spent. My 
goal would be, let us publish a ``Waste Book'' before the money 
is spent, and again, you gave us the guideposts for doing that.
    Talk about implementation. I mean, what can we do? What 
could this Committee potentially do to induce, might I say, 
force implementation, because you have so much money at stake. 
And, like I say, it is not just money. Take a look at the VA. 
It could be lives. I mean, what can we do to prompt, induce, 
force as full implementation of your recommendations as 
possible?
    Mr. Dodaro. I will give you an example of one of the things 
that I have done that I think could be replicated in the 
Congress to really induce more progress. One is, since I became 
Comptroller General, I went to OMB and I said, look, you have 
real serious problems here across the spectrum of the Federal 
Government. During the Bush Administration, GAO started having 
meetings with OMB and the agencies on the High-Risk List, but 
it was usually at the Assistant Secretary level and below.
    And I said, look, if you get the head or the deputy of the 
agency here to the meeting and the Deputy Director for 
Management is at the meeting, I personally will participate in 
those meetings to focus on what needs to be done to make 
improvement. We have been doing that for the past couple of 
years. I attribute raising the elevation of that level to the 
top agency leaders in the agency to the degree of progress that 
we have seen over the past several years.
    I believe engagement with those top officials, whether it 
be in a hearing or it be in a private meeting, it be with 
correspondence or other efforts, with the Congress and with the 
agency, is really important.
    The second major thing Congress could do, on the High-Risk 
List, you will see an asterisk beside every area that requires 
Congress to act and pass legislation in order to rectify the 
High-Risk Area. Financing the Nation's surface transportation 
system is an example. Postal Service reform is another example 
in that area. And, there are many other areas on the High-Risk 
List where Congress is an integral part of actually fixing the 
problem, and we have noted that so that the Congress could 
focus on those areas.
    So, those are two real fundamental things that I think are 
very important, and ensuring continuity over time so that 
progress can be achieved.
    One of the reasons I was very convinced to put VA Health 
Care and IT acquisitions and reform on those areas is because, 
I believe neither one will be fully resolved during this 
Administration's watch and will have to be continued and 
sustained into the next Administration. And, so, it is very 
important to have that continuity to focus on these problems.
    Chairman Johnson. Well, certainly, one of the things we can 
do with this Committee is hold those hearings. We will work 
very closely with you to schedule those hearings and have you 
have a seat at the table as we are talking to those agencies.
    Mr. Dodaro. We would be happy to.
    Chairman Johnson. I do want to, in my remaining time, I 
want to drill down in terms of the VA Health Care System. A 
hundred recommendations. Over what time period have you been 
issuing those recommendations? Why have they not been 
implemented? And, can you just kind of speak to the major 
recommendations that you think really need to be prioritized 
for implementation.
    Mr. Dodaro. Sure. I will ask my colleague, Debbie Draper, 
who is focused on that work, to come to the table to help me 
answer the questions, but I will start.
    We first started reporting on this problem in the year 
2000, so the recommendations have been made over a number of 
years. And, I might point out, in a number of these cases, VA 
agreed to implement the recommendations, but they were not 
being implemented over time effectively. I met with Secretary 
Eric Shinseki when he was there, talked about the need to 
implement the recommendations. I have just met with Secretary 
Robert A. McDonald and he agreed to make it a priority to 
implement the recommendations.
    Most of them are on access to care issues, where they do 
not have good scheduling systems put in place. The IT system 
that supports the scheduling system is about 30 years old. One 
of the IT failures that we point out in our report explained 
that after 7 or 9 years and over $200 million, they terminated 
their effort to upgrade and modernize that system.
    They do not have good data in a lot of areas to compare 
whether it is cheaper for certain particular services to give 
treatment in a VA facility or send the person to a non-VA 
facility, and this is really important because Congress has 
just given them $10 billion to make those decisions. They do 
not have good information to make well-informed decisions in 
those areas.
    But, Debbie has been doing a terrific job. I will ask her 
to elaborate a little bit more.
    Chairman Johnson. Please.
    Ms. Draper. Thank you. So, we made 167 recommendations over 
the past 5 years, and there are actually more prior to the 5-
years, but more recently, it is 167. Just over 20 percent of 
those have been completely implemented and closed. So, there is 
a large number of recommendations, as Gene talked about. There 
are a lot related to access to care. And, it is not just the 
policies. It gets back to the five broad buckets of why we 
included VA Health Care in the High-Risk List.
    Inconsistent processes that play out at the local level--
you have a lot of variation at the local level, and this is 
really attributed to ambiguous policies, which are widely 
interpreted. Policies do not tend to be standardized processes 
across the VA Medical Centers (VAMC). We also see certainly 
inadequate oversight and accountability and, for example, VA 
tends to rely on self-reported compliance with policies, and 
that information is often not verified. So, when we go in, we 
look at those compliance issues and, contrary to what the 
facilities have reported, most of the times, they are not in 
full compliance with the policy. So, there are a lot of 
different areas, but there are a large number of 
recommendations that remain open.
    Chairman Johnson. Well, thank you. We will work very 
closely with you in terms of trying to push and prod the VA to 
implement those recommendations as rapidly as possible, so we 
look forward to working with you. Senator Carper.
    Senator Carper. Thank you, Mr. Chairman.
    You mentioned how large the tax gap is, and I think the 
number you mentioned, Gene, was $385 billion, is that correct?
    Mr. Dodaro. Yes. That is the net amount. There is a gross 
amount, and then IRS expects to collect so much. Yes.
    Senator Carper. Is that money that is owed in one-time 
money, or is it money that is lost on a recurring basis?
    Mr. Dodaro. It is the latest estimate based upon tax year 
2006. One of the reasons that the IRS has been on the list for 
many years, and the original list in 1990, was tax 
administration, where they were not measuring the tax gap. And, 
so, after a number of years and prodding by us and the 
Congress, they finally started measuring it. It is expensive to 
measure it, so that is the latest estimate. But, it is an 
annual estimate.
    Senator Carper. All right. The Commissioner of the IRS is a 
fellow named John Koskinen, whom you probably know. Have you 
met with him?
    Mr. Dodaro. I have worked with John in many areas over the 
years. He used to be the Deputy for Management at OMB. 
Actually, John and I worked to put in the Chief Financial 
Officer structure into the government and on legislative 
initiatives to actually create CIOs across the government and 
fixing the Y2K problem. So, I have much knowledge of working 
with John and I have met with him in his new capacity.
    Senator Carper. That is good. He is a very impressive 
leader, and I am hopeful he is going to provide wonderful 
leadership at the IRS.
    He testified before the Finance Committee last week, and 
later I met with him in my office. One of the things that he 
mentioned to me is that for every dollar that we invest in the 
IRS and their people and their technology, they generate 
roughly $10 worth of revenue. And, if you look at the amount of 
money that we provide for the IRS to do their job now, we 
actually provide less than we did a few years ago. And, as you 
suggest, we are leaving about $400 billion of money on the 
table of money that is not being collected. Would you just care 
to comment on his observation?
    Mr. Dodaro. Yes. We have reported--in fact, we rate IRS as 
``not met'' in the capacity area to fix this problem, largely 
because of some of the resources and the uncertain budget 
environment in this area going forward. Now, that being said, 
though, we also have a number of recommendations that they need 
to look at and evaluate the return on investment that they are 
getting from different enforcement efforts, and they could do 
more with the resources that they have been given and 
prioritize those efforts. So, we have a number of 
recommendations in those areas.
    But, that is an area that I believe needs attention to make 
sure that they have the resources necessary to be able to 
improve collections. They have been having budget cuts and they 
have been given increased responsibilities in the Affordable 
Care Act and a number of other----
    Senator Carper. And, the other thing they have been given 
is a tax code that is not made more simple every year, but 
generally made more complex. And, we muck around with it and 
change it at the last hour or do not change it and we make it 
difficult for them to actually provide the information to 
people who want to file their taxes in a timely way. There is 
plenty of work to be done here, but a good deal of that work is 
to be done by my colleagues, not just on this Committee, but 
our colleagues in the House and Senate working with the 
Administration, and thank you.
    Mr. Dodaro. And there are some things that Congress could 
do to help IRS. One thing to do would be to increase the 
requirement for electronic filing. Another would be to give 
them additional math authority where they could fix errors 
right on the spot rather than generating and spending a lot of 
time over those errors. So, we have a lot of recommendations. 
Obviously, simplifying the tax code would be tremendously 
helpful.
    Senator Carper. They have also been asking for legislation 
that would enable them to better ensure some quality in terms 
of capability of the people who help prepare returns and file 
returns.
    Mr. Dodaro. Yes.
    Senator Carper. I think that is a very large problem.
    Mr. Dodaro. Yes. We have made that recommendation. We 
studied the use of that in Oregon. Oregon was actually piloting 
it for their own State and they found that making 
certification, training requirements for paid tax preparers 
increased their collections and we recommended that IRS do it. 
They went forward and the courts have ruled they did not have 
the authority to do it, and so it is really in Congress' hands 
right now to give them that authority. We continue to recommend 
that would be a good thing to do.
    About 60 percent, of the people go to paid tax preparers. 
We have done work in the past where we have sent undercover 
teams in to paid tax preparers, and the last time we did it, 
three out of ten were making mistakes and particularly errors 
in the Earned Income Tax Credit area.
    Senator Carper. Good. Thank you for that.
    You mentioned the number of items that have been listed on 
the High-Risk List for years, and I think there are hundreds 
that still remain to be fully addressed and resolved. But, we 
have made progress. The agencies throughout the government have 
made progress. You mentioned a number of those areas where that 
progress has been made. Some of it is in the Department of 
Homeland Security, which we have jurisdiction over. We are 
pleased with that. Some is within the Department of Defense, 
and they have a lot more to do, but there is some good work 
that is being done.
    But, if you think about the areas, where it is department-
wide or with respect to specific parts of the departments' 
jurisdiction where actually real progress is being made, the 
real attention is being paid to the recommendations that they 
are receiving from you and, frankly, the hearings that we hold 
and the oversight that we conduct. What are the factors that 
better ensure progress? I like to say, find out what works, do 
more of that.
    Mr. Dodaro. Right.
    Senator Carper. What are the factors that appear again and 
again to be successful here?
    Mr. Dodaro. Yes. No. 1 is top leadership commitment. If you 
do not have the head of the agency or the deputy focused on 
this issue, you will make marginal progress, at best, in those 
areas. And, what I have seen, in Homeland Security, I have 
talked to Secretary Janet Napolitano, Secretary Jeh Johnson, 
the deputies, Jane Holl Lute, and Alejandro Mayorkas are 
focused on this, as well as the Under Secretaries for 
Management, just to give one example. The same thing at 
National Aeronautics and Space Administration (NASA). The 
deputy has been focused on this, Bob Lightfoot, and I know John 
Koskinen at IRS. So, the top people need to be focused. These 
are big, tough problems. They require prioritization in the 
agencies. They require changes in the culture of the agencies, 
and if they are not led from the top, they are not going to be 
successful.
    Second thing is a good plan. A number of agencies start 
initiatives. There are no real performance measures or metrics 
in the initiatives. There is no way to hold people accountable 
for interim progress. The next thing you know, they are gone 
and there is a new political person that we are dealing with in 
the agency and we kind of start all over again. If there is a 
plan in place that has been followed, that is a good plan that 
has milestones and metrics that can transcend changes in 
political leadership in the Departments.
    And, so, those two things are really very imperative, and 
the third thing would be engagement from the Congress. If it 
does not matter to the Congress and does not matter to the 
agencies appropriation and does not matter to its oversight, it 
is not going to matter to the agency. And, I can say all that I 
can say and encourage them, but Congress has to be a real 
partner in this effort to ensure success.
    Senator Carper. Thank you for all that. Let me just 
conclude, Mr. Chairman, on one last point.
    I say to my colleagues, particularly those that are new, 
improper payments are a huge problem, and while they are being 
actually addressed, satisfactorily addressed in a number of 
areas, a big one that is still the elephant in the room is 
health care, Medicare especially, where the improper payments 
have gone up by about $15 billion, and Medicaid, which has 
ticked up by about another few billion dollars.
    Dr. Coburn and I introduced in the last Congress something 
called the PRIME Act. It had over 25 cosponsors, and some of 
you on this Committee were cosponsors. We put it in the 
sustainable growth rate (SGR) fix, could not get it passed, but 
we are going to reintroduce it. My hope is that many Members of 
this Committee will be cosponsors of that legislation. We need 
to get it done. It will help ratchet down some of those 
improper payments, especially in Medicare and Medicaid, and we 
need to make progress.
    Mr. Dodaro. Senator, if I might add, one additional area 
that I think Congress needs to focus on is the Temporary 
Assistance for Needy Families program. Right now, the 
Department of Health and Human Services (HHS) does not believe 
it has the authority to collect information from the States to 
measure improper payments, so it is one large program where 
there is no measurement going on at all, and I think Congress 
needs to send a signal----
    Senator Carper. Good.
    Mr. Dodaro [continuing]. That needs to be taken care of.
    Senator Carper. Thank you. We will add that to our ``to-
do'' list. Thank you. Thanks so much.
    Chairman Johnson. Thanks, Senator Carper. I think you can 
rest assured that this Committee will be engaged, and the two 
of us working together, we will.
    Before I call on Senator Lankford, you mentioned a 10-to-1 
payback for the IRS. I did not mention in the Committee but I 
mentioned in the press conference, we often talk about cutting 
budgets and all we are really talking about is reducing the 
rate of growth in spending. Unfortunately, the GAO is one of 
these agencies where we have actually cut spending. We have 
gone from $556 million in 2010 to $480 million in 2013 and $522 
million in 2014.
    A quick back-of-the-envelope calculation in terms of 
payback, using your $40 billion figures, that is a 76-to-1 
payback. Now, some of those may be one-time savings. But, if 
you add the $100 billion of Medicare and Medicaid and the other 
things you mentioned, that is a 268-to-1 payback. So, I would 
recommend that certainly all the Committee members be somewhat 
supportive of making sure that the GAO is fully funded because 
it is a pretty effective payback. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Comptroller Dodaro, thanks for being 
here, and thanks for all the work you and your whole team do to 
help keep us informed on some of these issues.
    I want to mention one thing that has been on your list for 
quite a while and that is managing Federal real property. I was 
surprised, because I know there has been a big initiative to 
try to lower the footprint of the Federal Government and the 
real property that are both owned and leased, the Freeze the 
Footprint Initiative that started several years ago to try to 
at least drop our hold to what we have.
    I was a little surprised to see in your report that it 
listed that you all had done some studies on some of the Freeze 
the Footprint data and the drop, the 10 million square feet 
that we have actually reduced, when you actually studied and 
looked at it, you said it actually did not happen. They had 
either just moved to the General Services Administration (GSA) 
or it was just a timing issue. I wanted to give you a chance to 
talk about that a little bit, because this is a big issue that 
we have to resolve at some point. We have a lot of Federal real 
property out there.
    Mr. Dodaro. Yes. I am going to ask our expert in the area, 
Phil Herr, to come up and talk about it, but you are exactly 
right. I mean, what we found was that many of the initiatives 
that were underway before they started Freeze the Footprint 
activities, so they really were not attributable to the 
initiative.
    A big problem in this area is lack of reliable data.
    Senator Lankford. Right.
    Mr. Dodaro. That is one of the biggest problems. The 
government has a lot of underutilized or not utilized at all 
properties that need to be taken care of. There is an over-
reliance on leasing in the Federal Government, where it may be 
more cost advantageous to have ownership over those areas over 
time. We have pointed out the program is not doing a very good 
job in securing the property, as well.
    But, Phil can talk a little bit more about that particular 
study that you have talked about, but your characterization is 
accurate, for sure.
    Mr. Herr. Yes. I would just add that it is a great example 
of the need for continuity and to followup. We know that OMB is 
working with GSA on a governmentwide strategy that is due in 
2015. That is one we will be looking at closely. But, it is 
also really important, and I think it emphasizes the point that 
the Comptroller General just made, about just looking at the 
data and ensuring that there is integrity and looking and 
making sure those calculations are correct. When we did that, 
we found that there were some questions about double-counting, 
things being counted in multiple years, so--and that is a good 
example for the kind of oversight your Committee can do.
    Senator Lankford. When we deal with actual disposal of 
property, obviously, we have all gone through for years the 
difficulty of actually disposing of real property that we own.
    Mr. Herr. Correct.
    Senator Lankford. So, have you all done any examinations 
for those independent disposal authority, those agencies that 
have that, their capacity to be able to dispose of property 
versus other agencies in the Federal Government, or when you 
deal with, for instance, the Department of Interior (DOI) and 
some of their authorities to be able to move out properties 
versus others?
    Mr. Herr. We have not looked through that particular lens. 
The one thing we have looked at consistently are some of the 
barriers that agencies encounter in doing this. There is the 
processes--we just did a report on the McKinney-Vento process 
and how that might be streamlined and how there could be better 
accountability, because that is something the property has to 
go through--agencies have to go through before proceeding with 
the disposal.
    Senator Lankford. So, the Department of Interior that has 
the expedited conveyance process, where they can look at State 
and local governments, if this is going to be transitioned into 
other public uses, seems to be a faster process. Have you all 
had any opportunity to be able to examine that process and see 
if it is being effective----
    Mr. Herr. Not in real depth, but that would be something we 
would be happy to work with the Committee on.
    Senator Lankford. OK. that is one of the issues that I hope 
we can take a look at some point, to find out what is working, 
because it does not seem like every agency has this issue, but 
a lot of agencies do----
    Mr. Herr. They do.
    Senator Lankford [continuing]. To find out which agency is 
being effective at actually transitioning property that really 
works and what process is helping us in this.
    I want to go back to some of our conversation on tax 
issues, as well, if I can jump back to that. The identity 
theft, you all brought up a very interesting set of statements 
there and I would like to go into a little greater depth on it, 
about the W-2 form and the time period of the W-2 form and how 
we have identity theft basically because the W-2 form does not 
come in late and we are doing returns early and there is a 
great opportunity for identity theft. How does that get 
resolved?
    Mr. Dodaro. Under the current approach, IRS starts 
processing returns early. They do not receive the W-2s from the 
employers until April. They go to SSA first. There is a 
different deadline in statute. So, we are recommending that the 
Congress should give IRS authority to require employees to file 
W-2s earlier. But, IRS really has not studied the costs and 
benefits of that. It may impose some burdens on the employers, 
and so we are recommending IRS study that. So, that is No. 1.
    Senator Lankford. So, is it possible to just have that the 
returns cannot go out until the W-2s are in?
    Mr. Dodaro. Well, that is another possibility, but it will 
delay refunds, and, the----
    Senator Lankford. People get pretty excited about that.
    Mr. Dodaro. Yes. Right. [Laughter.]
    Particularly those that are expecting a big refund----
    Senator Lankford. Sure, but we have also $5 billion of 
fraud that is sitting out there from identity theft----
    Mr. Dodaro. Right.
    Senator Lankford [continuing]. And people are filing their 
taxes and finding out someone has already filed under that same 
number.
    Mr. Dodaro. Yes, and that is why we are asking IRS to study 
this thing, so Congress can make an informed decision. You 
might want to delay it a little bit and accelerate the 
reporting. I mean, there is a lot of room between the end of 
January, when employees receive their statements, and April. 
But, right now, the only way they find out that there is fraud 
is when the honest taxpayer actually files their return and IRS 
says, whoops, we already paid the refund to somebody else who 
used your identity. And, the way people can get the information 
to file fraudulently now, either at the Federal or at the State 
level, is so easy to be able to do it.
    The other thing that could be done is to give IRS math 
authority. In some cases, they know that a return is incorrect. 
They could fix it right away and not cause a problem over a 
period of time.
    And, the third thing would be what we were talking about a 
little bit earlier, in having certification requirements and 
training requirements for paid preparers in a lot of cases. We 
know in some cases paid preparers are not giving the best 
advice to people. In the vast majority of cases, they do.
    So, those three things, we think, can really help address 
this problem.
    Senator Lankford. One quick transition, as well, and that 
is to the surface transportation. I know that you looked at 
some of the needs, obviously, that are sitting out there that 
are financial needs and that Congress needs to address. Have 
you had the opportunity to be able to look at the expansion of 
what is considered a Federal project over the last 20 years, 
just on the number of miles or roads or type of roads, because 
there has not only been an expansion of the need, but there has 
also been a tremendous expansion--my perception is--of the 
number of miles that are considered Federal project or the 
number of things that are considered Federal project in the 
last 20 years.
    Mr. Dodaro. Phil also happens to be our transportation 
expert so he is----
    Mr. Herr. I will double-dip here. We have done some work 
related to that. I mean, one of the things that gets put into 
the Highway Trust Fund, you get a lot of the safety programs 
and things of that nature. Transit is also funded out of the 
Highway Trust Fund. So, you have a lot of things that have been 
put in there, a lot more demands, and the system is aging, so 
additional resources need to go into that to just help maintain 
those systems. And, the Interstate is now 50 years old, so 
rebuilding that is a big part of it.
    Mr. Dodaro. Yes, and our focus has been on the financing 
streams that go in there. Obviously, the Highway Trust Fund has 
not been able to meet the needs, and it is declining for a wide 
number of reasons.
    Senator Lankford. Right.
    And part of my question was just related to the actual 
roads themselves. I understand the safety and the transit and 
other things, but the actual number of roads that are 
considered Federal projects versus 20 years ago, the number of 
roads that were considered Federal projects.
    Mr. Herr. Well, they worked to bring in the National 
Highway System, so that would be one area where you Federalized 
some of those. But, we can get back to you with additional data 
on that.
    Senator Lankford. Thank you. I yield back.
    Chairman Johnson. A real quick question. Is not the W-2 a 
multiple-part form? Would not a pretty simple solution be to 
add another copy?
    Mr. Dodaro. I will talk to our experts about it and see 
what----
    Chairman Johnson. Senator McCaskill.

             OPENING STATEMEN TO SENATOR MCCASKILL

    Senator McCaskill. Yes. I was going to say the same thing. 
If the employee gets it in January, or early, that means the 
employer has it, so it is not like we are asking the employer 
to produce something earlier, because it has already been 
produced. We are just asking employers to get it in the hands 
of the IRS earlier. So, I do not know that asking the IRS to 
study this is a good idea--because I know what that ``study'' 
word means. It means we are going to be at this for much longer 
than we should be at it. So, Mr. Chairman, I would like to----
    Chairman Johnson. We will cosponsor a bill.
    Senator McCaskill [continuing]. See if we cannot, with the 
protection of the Chairman, who would stand for the proposition 
that we are not trying to burden businesses, maybe we can get 
through this.
    Chairman Johnson. They should not be a burden.
    Senator McCaskill. There we go.
    Our Subcommittee last year held hearings, as you know. 
First of all, good to see all of you. Your stuff is required 
reading in my shop. Someone asked me about how depressing it 
must be to be in the minority, and I said, one thing about 
oversight, a GAO report is the same when you are a Democrat in 
the majority and the same when you are a Democrat in the 
minority. Thank you for all of your work and please share that 
with all of your colleagues at the mother ship. [Laughter.]
    We held a hearing last year, in the last Congress, about 
the overpayments in medical equipment, as you know. I want to 
make sure everybody understands how bad this is. In 2012, 
according to the data provided by the Centers for Medicare and 
Medicaid Services, they made improper payments on medical 
equipment of almost $6 billion. So, that means there is $6 
billion worth of pure waste, overpayments being made, on 
durable medical equipment. And, that is an error rate--just so 
people have a concept of how bad it is--of 66 percent. They 
recover hardly any of these payments. I think in the last data 
we had available, CMS recovered only $34 million of an 
estimated $5.2 billion in improper payments.
    We learned in that hearing that they do not do anything up 
front to screen. They keep sending to one address, thousands of 
businesses registered at one address, until after the fact, 
then clawing back and they are gone. They are indicted. In 
fact, one of the companies was at that hearing. As you recall, 
I was very suspicious about their name. Their name was Med-
slash-Care. They were calling seniors and saying, ``This is 
Medicare.'' And you can get this and you need this. They were 
sent all this stuff out and they were criminally raided by the 
FBI a few weeks ago.
    So, your recommendations to CMS have not been followed. 
What is your sense as to what is the problem at CMS that they 
will not accept and adopt the recommendations in this 
incredibly low-hanging fruit where we could save a lot of 
money?
    Mr. Dodaro. Yes. Cindy Bascetta is our expert in that 
health care area. I will give my take and I ask her to provide 
more detail.
    First of all, part of this is changing this culture that 
had been ingrained in CMS for years. It was to pay fast and get 
the money in the hands of the providers to make sure there was 
nobody who needed care that was not receiving care, and so that 
culture is really ingrained in the process over a period of 
time.
    And, they have established a Payment Integrity Center, but 
they are slow to implement these recommendations. You have to 
keep bad actors out of the system. One of the things was to 
establish a surety bond up front so that there is money that 
the contractors have put up. They finally now have gotten to 
where they have a contractor that can do fingerprint and 
background checks ahead of time, so they are going to put that 
in place.
    So, the first thing is to stop bad actors from getting into 
the system to be providers, and that has been difficult for 
them to grapple with, and they are starting to move slowly in 
that area.
    The other thing is they give an incredible amount of 
discretion to the contractors who are making these payments in 
error. You would think Medicare was one system, but it really 
is not. There is a lot of discretion given to the contractors. 
We have been trying to say, get the contractors to identify 
their best practices for preventing payments and recovering the 
funds and to share that with all the contractors so that there 
can be best practices. That has not been implemented. We have 
encouraged them to set up core compliance programs that 
providers have to follow. That has not been implemented yet.
    I have tried to raise this as an issue. I have met with 
Secretary Sylvia Mathews Burwell and the former head of CMS, 
Ms. Tavenner, and I emphasized these open recommendations we 
had and the need to implement the changes. So, I have certainly 
been doing everything I can. I think additional congressional 
oversight would be really helpful in this area, and I will let 
Cindy give anymore details.
    Ms. Bascetta. I would just add that we have also encouraged 
them very strongly to move more quickly on their predictive 
analytics, which would really help prevent the overpayments in 
the first place and identify bad actors rather than recoup 
payments. With respect to durable medical equipment (DME), I 
just point out that their competitive bidding program that was 
instituted several years ago----
    Senator McCaskill. It is working.
    Ms. Bascetta [continuing]. Has, indeed----
    Mr. Dodaro. Yes.
    Ms. Bascetta [continuing]. Yielded many savings. We are 
watching carefully to make sure that they do not get to the 
point where there might be negative effects on beneficiary 
access to the equipment that they need. But, they are making 
progress in that area.
    Mr. Dodaro. But, you are right. The problem is bad.
    Senator McCaskill. It is bad.
    Mr. Dodaro. And it is going to get worse, because of the 
fast----
    Senator McCaskill. It is going to get worse, and there are 
things that can be done to fix it.
    Mr. Dodaro. Right.
    Senator McCaskill. So, I know Chairman Susan Collins--she 
and I are serving on the Aging Committee now--I know we are 
going to continue this investigation, and continue to put 
pressure on CMS.
    In the comprehensive immigration reform bill that was 
passed by a wide bipartisan margin in the Senate, we funded an 
additional $46 billion in border security. I am confident, no 
matter how the immigration politics play out over the coming 
months in this Congress, that all of us agree that there has to 
be additional significant funding on the border. I am worried 
about whether or not DHS management is ready to absorb this 
flood of funding. I am trying to remember--53 miles of the 
border, I think, we did for a billion dollars. That is not 
exactly encouraging, that it took us a billion dollars to do 53 
miles.
    I would like, just briefly, if somebody could speak to 
that, and, frankly, if you have an opinion, I think the 
Chairman is a former businessman and I know if he did not know 
if his receivables, if and when they were ever going to arrive, 
it would be very hard to manage an ongoing enterprise? And 
whether or not the fact that we are budgeting by crisis in fits 
and starts and continuing resolutions (CRs) and threatening 
shutdown, if that is contributing to some of the mismanagement 
at DHS.
    Mr. Dodaro. Well, I can just speak from trying to run the 
GAO under continuing resolutions; it is a difficult process. I 
told our appropriators one of the things I never aspired to be 
in public service was an expert at managing under continuing 
resolutions. It does create a lot of uncertainty and make it 
difficult to manage.
    Dave Maurer is here. He is in charge of our work at DHS. I 
do think they are still struggling in the acquisition area to 
properly manage their acquisitions. That is something we are 
keeping an eye on and we will focus on this additional funding. 
Dave.
    Mr. Maurer. That is absolutely right. Acquisition is one of 
the major challenges DHS faces on the management front. They 
also face some significant challenges in other aspects, as 
well. Employee morale, for example, at DHS has consistently 
been bottom-of-the-barrel compared to other departments. Their 
numbers have been going down at a faster rate than in other 
Federal agencies. That is something of concern. We are 
encouraged by the fact that the Secretary and the Deputy 
Secretary have taken some efforts to address both of those 
issues head on--both acquisitions and morale. It is something 
we are going to be watching very carefully in the coming years 
and months.
    Senator McCaskill. Thank you, Mr. Chairman.
    Chairman Johnson. Real quick, to answer your question of 
the Chair, it is our side of the aisle that is actually trying 
to get a bill on the floor to be debated to fund the 
Department, so----
    Senator McCaskill. Well, we would disagree on that.
    Chairman Johnson. I think, also, Senator Baldwin and I will 
also agree that I think our paper industry would kind of like 
our W-2 fix, so we will work on that.
    Senator McCaskill. That is right.
    Chairman Johnson. Senator Baldwin.

              OPENING STATEMENT OF SENATOR BALDWIN

    Senator Baldwin. Thank you, Mr. Chairman, and Mr. Dodaro, 
thank you for being with us today.
    I would like to focus in on the problems that you have 
identified in the GAO report with the Veterans Health 
Administration (VHA), both systemwide but also in Wisconsin and 
facility-based issues. The GAO report provides ample evidence 
to corroborate what I have learned in disturbing detail over 
recent weeks, that the VHA suffers from mismanagement and 
inadequate oversight, especially of individual facilities. It 
appears that the Veterans Health Administration lacks not only 
clear and appropriate systemwide policies and protocols, but 
also lacks the ability to ensure that they are followed at the 
facility and the regional Veterans Integrated Service Networks 
(VISN) level.
    For example, at the Tomah VA facility in Wisconsin, current 
and former employees and veteran patients have brought to my 
attention allegations of inappropriate opioid prescription 
practices and abuse of administrative authority, including 
retaliation against whistleblowers. This facility is currently 
under investigation by Secretary McDonald and we all hope that 
it yields appropriate and positive results. But, make no 
mistake, extremely troubling issues have come to light 
regarding the VA and this specific facility, and I believe that 
Congress is going to have to act in a variety of ways to make 
improvements so that our veterans in Wisconsin receive the care 
that they deserve.
    Mr. Dodaro, in the case of the Tomah VA facility, a report 
initiated in 2011 and concluded in March 2014 from the VA 
Office of Inspector General found evidence of troubling opioid 
prescription practices that were at considerable variance from 
peer facilities in the regional network. This report 
recommended changes to address those problems at the facility 
level, and subsequently, actions were taken.
    In the last month, however, media reports have revealed 
that whatever those actions were that took place to remedy the 
problems had either not been implemented, not been implemented 
effectively, or were entirely insufficient. It is also unclear 
if any senior VA official ever was made aware of the report 
that the Inspector General did or the remedial actions that 
were recommended or taken at the Tomah VA.
    In your view, does the Veterans Health Administration have 
adequate oversight controls in place to ensure that facility-
level problems are first, identified, and then sufficiently 
addressed?
    Mr. Dodaro. I will ask Debbie Draper to elaborate on this. 
She is our expert in the VA area.
    But, one of the areas we point out in the report we are 
releasing today is there really is inadequate oversight and 
accountability. The individual facilities have been given wide 
latitude to implement the policies and procedures. There are 
not reviews being done by headquarters that should be done of 
the facilities to make sure that they are adequately following 
the policies and procedures. And, when we go in, we find that 
those reviews are not done. They are relying on self-reported 
data from the facilities, which is not consistent with proper 
internal controls, and to have a good accountability and 
evaluation of function and program. So, it is a real problem 
over there that needs attention, but I will ask Debbie to 
elaborate.
    Ms. Draper. I mean, it is certainly a system that is in 
need of major transformation, and I think that we have seen--
and one of the reasons we have added it to the High-Risk List 
is that over and over in the past 5 years, the reports that we 
have issued have constantly highlighted the inadequate 
oversight and accountability and ambiguous policies and 
inconsistent processes. So, there is an aversion to 
standardization within the VA, but when you have that much 
autonomy at the local level, you often hear the story, you have 
seen one VA medical center, you have seen one VA medical 
center, and that is really true, because there are, like, 150 
different processes that play out at the local level.
    We are particularly concerned because of the growing 
demands on the VA Health Care System. So, between 2002 and 
2013, the number of veterans enrolled in VA health care 
increased from 6.8 million to 8.9 million, and over that same 
period of time, the number of outpatient medical appointments 
increased by 40 million. So, if you have weaknesses in place 
and you do not correct them, then the problems are going to 
really become much bigger.
    Senator Baldwin. Mr. Chairman, I have a second question on 
Tomah, but I believe I am not going to have time to get to a 
third question on a GAO report that was issued in November 2014 
regarding protocols with treatment of veterans with major 
depressive disorder. I would like to be able to submit that 
remaining question for the record and get a response after the 
fact.
    But, to my next question in the case of Tomah, there seemed 
to be virtually no internal Veterans Administration 
communication and certainly no external communication to 
Congress or the public regarding the problems at this facility. 
In fact, when I first contacted the Tomah facility and the VA 
headquarters here in Washington on behalf of a constituent who 
had raised a number of concerns covered in the Office of 
Inspector General (OIG) report that I just referred to, no one 
at any level of the VA talked about the existence of this 
report or informed me of the existence of this report.
    And, in light of this lack of transparency, I wonder if you 
think that a GAO-type model of investigating, issuing 
recommendations, and requiring the affected agency or group to 
formally and publicly respond would improve the Veterans Health 
Administration's ability to perform successful oversight at the 
regional and individual facility level and hold them 
accountable for any wrongdoing uncovered.
    Mr. Dodaro. Well, there definitely needs to be 
accountability over reacting to audit findings. In fact, there 
is existing OMB guidance that agencies are supposed to track 
audit reports and track followup efforts and have a response. I 
met with Secretary McDonald last Friday, actually, and he said 
he has given high priority to begin following up on IG 
recommendations and GAO recommendations. So, hopefully, this 
will be addressed.
    But, you are exactly right. There are policies and 
procedures already in place that should have assured that they 
followed up on every IG report and recommendation that would be 
in place, and GAO reports, as well. Those could be 
strengthened, and there may be a need to do that in this 
particular case. But, those policies exist. So, it is a lack of 
compliance with existing policies that it sounds like. I mean, 
we have not looked at this specific information, so I really do 
not know for sure, but it sounds like from your description 
that they just did not adhere to the policies that already 
exist.
    Senator Baldwin. Thank you, and I will submit for the 
record the GAO report\1\ that was issued in November 2014 
regarding veterans who are diagnosed with major depressive 
disorder. It appears that there is a huge deviation from VA 
guidelines with regard to the treatment that you have uncovered 
and I think that is very disturbing and that we need to do more 
in followup to that, too.
---------------------------------------------------------------------------
    \1\ The GAO report submitted by Senator Baldwin appears in the 
Appendix on page 78.
---------------------------------------------------------------------------
    Mr. Dodaro. And we will be happy to respond.
    Chairman Johnson. Thank you, Senator Baldwin. I can assure 
everyone, this Committee will be fully engaged to make sure 
these recommendations are carried out, and we are going to do 
everything we can to make sure they are carried out. Senator 
Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman.
    I want to get to process, because if we were going to go 
through each one of these and debate their relative merits, 
Comptroller, we would be here all day. And, so, I want to talk 
about why we have these hearings and then everybody retreats, 
goes back to their agency, goes back to what we do, and then we 
come a year later and have another discussion.
    So, I want to ask about ongoing supervision and get to the 
heart of what you were talking about earlier, which is agency 
heads change, administrators change, and then you are back in 
the game again trying to educate or re-educate on why these 
recommendations were necessary. Let us just presuppose that 
every time something like this was done, we had a sit-down, we 
had a strategic plan put together, time-lined, with 
accountability measures that everybody agreed to and said, 
``Yes, we are going to do it,'' taking a look at--I think 
earlier, Senator McCaskill talked about return on investment, 
low-hanging fruit, prioritizing those things that actually give 
us the biggest bang for the buck, and then periodically 
actually getting reports on whether we are meeting those 
requirements so that this process becomes institutionalized 
between the Congress and the agencies and GAO.
    Mr. Dodaro. I think that would be an excellent idea and I 
would be happy to participate.
    Senator Heitkamp. I think it would be an excellent idea, 
but I have a tendency to fall in love with my ideas, so I just 
need---- [Laughter.]
    I need people to argue against me frequently, but----
    Mr. Dodaro. Well, I will not argue on this one.
    Senator Heitkamp. I think that is the level of frustration 
that we all have here, which is----
    Mr. Dodaro. Well, and I have the same frustration. I try to 
do what I can, working with the agencies and the Congress, but 
we need more concentrated focus on this. I mean, our 
government's financial condition is not sustainable over a long 
period of time and we are wasting too much money on these 
inadequate processes and procedures. So, whatever process that 
you can convince your colleagues to do, I will participate in.
    Senator Heitkamp. Well, it does seem to me that that would 
be a critical kind of component of followup, because the great 
work that you do and actually going out there and identifying 
these problems, identifying the areas of concern, if we do not 
have a systematic process piece to go behind it, we really are 
only talking to each other----
    Mr. Dodaro. Right.
    Senator Heitkamp [continuing]. And wringing our hands and 
decrying the waste of Federal dollars instead of actually 
fixing the problem.
    Mr. Dodaro. Yes. A good model is what we have been doing 
with DHS, for example. When I first met with them, the Deputy 
Secretary, they said they really did not know what to do to get 
off the High-Risk List, so I sent them a 29-page letter and 
specified all the things that they needed to do to get off the 
list. [Laughter.]
    But, to their credit, they said, ``OK, we understand now. 
We agree.'' They put a corrective action plan together. That 
plan has withstood changes in political leadership over at DHS. 
I meet with the current Deputy and they are making good, steady 
progress to that area. We have informed the Congress of these 
matters and Congress has given some attention. So, most of this 
stuff, except maybe for NASA, it is not rocket science, but---- 
[Laughter.]
    And it just requires disciplined follow-up.
    Senator Heitkamp. Well, and it requires some continual 
oversight that is not sporadic----
    Mr. Dodaro. Right.
    Senator Heitkamp [continuing]. That is meaningful. And, I 
think that is to the extent that you guys need us to play bad 
cop, we are way willing to do that. So, we will work on a 
discussion, I think, going back and forth on what that process 
could be.
    I want to just, in the time that I have left, talk about 
the IRS and talk about what seems to be a systemic failure to 
institutionalize processes that would prevent fraud. And, I 
want to start out by saying, obviously, if someone has a W-2 in 
their hand, there is a W-4 somewhere that has been filed with 
someone relaying this information. But, this information, 
according to Social Security dollar amounts, is relayed every 
time there is a payroll, is it not?
    Mr. Dodaro. I am not sure. Jim, do you know? This is Jim 
White, who is our tax expert.
    Mr. White. Some come in throughout the year, but the 
information that IRS needs to match, they do not have all of 
that information until after April 15 for the prior year----
    Senator Heitkamp. But Social Security has it.
    Mr. White. Social Security----
    Senator Heitkamp. When is the W-4 due to Social Security?
    Mr. White. It depends on whether it is paper or electronic, 
but it is due either February or March----
    Senator Heitkamp. Give me the date, though.
    Mr. White. Well, some of them are due at the end of 
February. Some are due at the end of March.
    Senator Heitkamp. So, the employer can have prepared W-2s, 
but transmittal of those W-2s to Social Security does not occur 
until the end of February?
    Mr. White. Correct. And, part of the reason for that is 
there does need to be a window in there for employers to 
correct errors, so they give it to the employee. Sometimes the 
employees go back. There are errors there that need to be 
corrected. Social Security also has an error correction 
process. And then those go to IRS.
    The other problem is IRS does not have the information 
systems, the computer systems that would allow them to do real-
time matching. So, that would be another part of this. If the 
forms came in earlier, IRS would need improved computer systems 
to be able to match real time to taxpayers' tax returns.
    Senator Heitkamp. It is really hard for those of us who 
deal with the complexities of Amazon.com to really believe that 
in this day and age, they do not have real time matching 
capability. And, so, that is something, obviously, that needs 
to be funded if we are going to be serious about fraud 
detection.
    I want to get to the identity theft, because none of this 
would really solve the problem of someone seizing that Social 
Security number, filing a fraudulent return, and what would be 
a way that we could prevent that if, in fact, the real taxpayer 
does not file until April 15?
    Mr. White. Well, you are right. The crooks file early. They 
need to beat the honest taxpayers' tax returns. So, they file 
early. When the honest taxpayer files, IRS at that point 
discovers they have duplicate returns and they know they have a 
problem. But, they do not find out until after they have issued 
the refund to the crook, and at that point, then they are 
trying to chase the money.
    Senator Heitkamp. Yes.
    Mr. White. So, the solutions--the pre-refund matching, 
getting the W-2s in in time to match to taxpayers' tax returns 
before refunds are issued, would put a big dent in the fraud. 
It is not the only solution.
    Another solution----
    Senator Heitkamp. That, I do not understand, and I am 
obviously out of time, but if somebody is going to seize that 
Social Security number and file a fraudulent return, you need 
to know that that is a fraudulent return if you are simply 
matching it against--are you suggesting that because the dollar 
amounts would vary, that would----
    Mr. White. Right.
    Mr. Dodaro. Yes. The person perpetrating the fraud really 
does not know what is in the other person's W-2----
    They are just making up the numbers. The other thing that 
is related to this is another recommendation we have. For 54 
million Americans that are enrolled in Medicare, their Social 
Security number is right on their Medicare card, and we have--
--
    Senator Heitkamp. Yes. Not good.
    Mr. Dodaro. Not good.
    Senator Heitkamp. Mr. Chairman, if I can just ask one more 
question, if we take and actually use old data--by that, I mean 
old numbers, this is your employer on that Social Security 
number, and use the previous tax year, you might actually get 
at least a bank of those returns that would be incorrect or 
would not match unless that taxpayer changed their status or 
changed their address or changed their job. Would that not be a 
screening technique we could use?
    Mr. White. It is a possible screening technique. The 
tradeoff there is, given the number of Americans that change 
jobs, change home addresses each year, IRS would have millions 
of false positives with that kind of match so they really need 
current information.
    Senator Heitkamp. I agree, but what I am saying is at least 
then you might be down to 20 percent of those returns that you 
do not know. I mean, I do not think more than 20 percent change 
jobs or change addresses every year.
    Mr. White. Yes, and IRS has made real progress with their 
filter system, so they have caught--they have prevented $24 
billion worth of fraud because of filters that do some of what 
you are talking about right now. The problem is the $6 
billion--it is the $5.8 billion of fraud that is still getting 
out the door.
    Senator Heitkamp. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman.
    Mr. Dodaro, thank you for your testimony, and for appearing 
before this Committee this morning. I certainly appreciate all 
the work that you have done with your agency in developing a 
High-Risk List that we are discussing today. We are looking for 
common ground in Congress. I think we all can agree that trying 
to eliminate fraud, waste, and abuse, mismanagement, those are 
things we should all be able to agree on, focus on, and work to 
achieve.
    But, as you know, in many cases, there is only so much that 
a Federal agency can do to deal with some of these issues 
without legislation and congressional action, and the GAO has 
identified a substantial number of High-Risk List areas that 
will many times require some sort of legislative action in 
order to be addressed.
    Last Congress, when I was in the House, I introduced with 
my colleague Cory Gardner, who is now a Senator with me here, 
legislation that would have modified some of the House rules, 
put a process in place to require Committees to hold hearings 
on programs, agencies, offices, and initiatives with 
duplicative goals identified by your annual GAO report, which I 
always find a fascinating report. One example I often give, 
particularly in my district, is the example where you have 
multiple folks that inspect catfish in this country.
    Now, I would think we should at least have one government 
agency that regulates catfish. I would agree with that. I like 
to know when I am eating catfish that it is safe and it has 
been raised properly. But, whether or not we need more than one 
does not make a whole lot of sense to me, and oftentimes it is 
Congress, because of different jurisdictions that we have with 
our Committees, that we like to hold on to those jurisdictions, 
it is Congress is the problem here, not just the agencies, as 
to why we have to have that duplication, and I certainly think 
that we can do better.
    In the House, I also introduced with another one of my 
colleagues now, Senator Lankford, who is actually on the 
Committee with me here, a followup to a report that I requested 
from the GAO. I appreciate the reports that I get from you. 
Your report studied the use of remanufactured auto parts in the 
Federal vehicle fleet and found that these parts can reduce 
operation and maintenance costs, sometimes significantly. To 
ensure that the findings of this report are available and 
considered by all Federal fleet managers, together, we 
introduced the Federal Vehicle Repair Cost Savings Act to 
encourage all Federal agencies to consider remanufactured 
vehicle parts, and we are going to continue to work on that in 
this Congress.
    However, the reason I bring this up is I am concerned that 
too many of your GAO recommendations--I have heard that from 
some of the other questions here--are never implemented and 
Congress never follows up on these recommendations. It is 
Congress, the folks right here in this room and other places, 
that never followup on these.
    So, I am going to ask you to be candid. I am going to ask 
you to give us a critique of Congress. In your experience, how 
effective has this body been in actually responding to the 
incredible work that the GAO does? And, again, please be 
candid, and we will not hold it against you. I certainly will 
not. I know the Chairman will not, either.
    Mr. Dodaro. Well, that is good to know. [Laughter.]
    In the overlap and duplication work that we do and issue 
our annual report, we actually have a separate scorecard for 
the Congress and a separate scorecard for the Executive Branch 
in terms of responding to the recommendations. And, we found 
that the Congress was responding to the recommendations a tad 
less, the rate--but still responding--than the Executive Branch 
activity. So, on a comparative basis, the Congress's record was 
relatively less favorable to the Executive Branch, if my memory 
is correct. I will go back and I will give the exact numbers 
for the record.
    Our next report will be out this April. It will be our 
Fifth Annual Report. So far, we have made 440 specific 
recommendations for change in those areas. But, there is much 
more that Congress could and should do.
    Last time we updated the High-Risk List, I was before this 
Committee and I raised the issue of the need for legislation on 
the Postal Service. Their business model is broken. They are 
losing billions of dollars. One of the first hearings the 
Committee held was on the Postal Service. I testified at that 
hearing. The next one was on cybersecurity, and eventually, 
there were bills passed on cybersecurity. So, there is a lot 
more that the Congress needs to do in order to rectify these 
High-Risk Areas and address the overlap and duplication 
problems.
    If legislation is introduced again along the lines of what 
you talk about, that require hearings in the overlap and 
duplication area, my suggestion would be that it also require 
joint hearings of different Committees, because, really, the 
most difficult problems are because of jurisdictional issues in 
the Congress.
    But, that is not the only problem. The problem is in the 
Executive Branch, too. I mean, they are compartmentalized the 
same way that the Committees are compartmentalized in terms of 
jurisdiction, and I have difficulty getting OMB's attention 
to--and prioritize, because they only have limited resources--
to get the agencies to work together or to say, these things 
ought to be combined into one function. So, that problem exists 
in the Executive Branch and the Congress, which compounds the 
difficulty in getting solutions to those areas.
    That is about as candid as I could be----
    Senator Peters. Well, we appreciate that.
    Mr. Dodaro [continuing]. At this point, and thank you for 
the question.
    Senator Peters. Well, I appreciate that, and what I am 
hearing from your answer, and obviously, there are problems in 
both the Executive and Legislative, but as you are saying, with 
the scorecard, we actually in Congress perform less than the 
agencies, which is not a good standard for us. We think the 
agencies should be doing a lot more, and if we are behind them, 
that just shows that we have more work to do, and particularly 
when you are as--which is a great suggestion about having the 
joint hearings to deal with some of the turf battles that are 
there.
    But, I think you would agree, then, that if we introduce 
bills like I have introduced with some of my colleagues here in 
the House and do that here, and putting in place a more formal 
process that forces Congress to deal with this in a formalized 
way, you think that is a good idea? You would support it and 
encourage it?
    Mr. Dodaro. Yes. And, I would participate.
    Senator Peters. Right.
    Mr. Dodaro. I would be here any day to testify.
    Senator Peters. Great. And be equally as candid.
    Mr. Dodaro. Yes.
    Senator Peters. Thank you, sir.
    Mr. Dodaro. Sure.
    Chairman Johnson. Senator Peters, coming from a 
manufacturing background, I certainly understand, without a 
good process, you do not have a good product. So, I appreciate 
your enthusiasm. I see you are on the Subcommittee under the 
Government Affairs part of this. We will stay engaged. I am 
looking for low-hanging fruit. When we are passing through the 
Senate, we need six Democrats joining us. We have seven on this 
Committee. That is an aspirational goal. Let us find those 
areas, and certainly the biggest bang for the buck, but also 
just those areas of agreement. So, we are committed to doing 
that and appreciate your engagement on the issue. Senator 
Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Well, thank you for your important work. We 
appreciate it. And, I think Ronald Reagan once said, there is 
nothing closer to eternal life than a government program. 
[Laughter.]
    So, one of the things is to followup on Senator Peters' 
comments, is I am not surprised that we have a low score in 
terms of when it comes to duplication and overlap. In fact, 
Senator Manchin and I have a bill--it is called the Duplication 
Elimination Act--and I hope the Chair might consider taking a 
look at that bill. Because this issue, as you have identified, 
is a problem on both ends. It is the Executive Branch and it is 
the Congress.
    And, so, this bill would actually require the President to 
submit to Congress a joint resolution to implement or reject 
GAO recommendations when they are made. And, if they are 
rejected, let us know why. If they are accepted, let us know 
why and how we plan to do it. And then it would require us in 
Congress to actually undertake an expedited review of those and 
to vote on them so that we could adopt things more quickly, 
because you do excellent work. GAO does excellent work and it 
sits on the shelf too often. The last thing we want is to 
continue funding programs that are not effective where we have 
places we need resources and it is a better allocation of 
resources.
    So, I am hoping that might be a bill we might consider 
making, but, basically, we all need a kick in the pants on 
this, and with your help, I hope we can do that, because what 
ends up happening, and I do not need to tell anyone here what 
happens. I have done it. Offer an amendment on eliminating or 
reforming one program on the Senate floor in an appropriations 
bill, and every program has a constituency. So, even if it is 
underperforming for almost every constituent it serves, that 
one constituency comes to their Senator and argues for it and 
here we are and nothing gets done.
    Well, we need to look at the big picture here, and I know 
that you are doing that and that is important, and so I am glad 
to hear Senator Peters focus on this, because this is a 
bipartisan issue. It is really--the Chairman, as well. And, I 
thank you because the work you are doing is excellent.
    I wanted to followup on the VA issue, because for New 
Hampshire, on the Choice Card issue, we are getting, as a State 
that is one of the States that does not have a full-service 
Veterans Hospital, the Choice issue in the veterans bill is 
very important to my State. So, what I am hearing from people 
in New Hampshire is that the third--the Choice Card is being 
processed through a third-party contracting agency and that we 
have veterans calling the office essentially saying that there 
is not enough information being given to veterans, that 
veterans are saying that they want to--if a veteran comes to 
you and says, ``I want to see a particular doctor,'' that might 
allow them to go and connect the veteran with the doctor. It 
may or may not. That has been complicated on that end. But, 
also, that if the veteran just says, ``I need this service,'' 
they are sort of left hanging.
    And, one, I wanted to get your thoughts are, is one of the 
things that was identified on the veterans' end in the report 
that you issued is the provision of non-VA care. So, in a State 
like mine, it is really important, because we do not have a 
full-service Veterans Hospital. It is addressed in the bill. 
So, we are giving our veterans access to more non-VA care. Are 
you going to do further work on this non-VA care issue, because 
Congress clearly shifted and expressed a preference to 
introduce more opportunities for our veterans in it. It seems 
to me, though, that the Veterans Administration has been really 
resistant to reform. And, we talk about access in veterans 
facilities, but they seem somewhat resistant in terms of 
informing veterans on what their rights are on the non-VA care.
    And, so, I wanted to get your thoughts on what further work 
we think we need to do on this provision of non-VA care. How do 
we get this, the Veterans Administration, to stop being so 
resistant to reform, because Congress has clearly expressed on 
a bipartisan basis it is about the veteran and we want to make 
sure that we get them proper care.
    Mr. Dodaro. Yes. Well, I would just say that we will do the 
work necessary in the future to make sure that this issue gets 
resolved satisfactorily. Debbie Draper is our expert in this 
area. I would like her to speak to the issues that need to be 
resolved. But, in putting this area on the High-Risk List, a 
couple areas I was really troubled by. One was the fact that VA 
does not followup to make sure if there is a referral that it 
actually happens, and they do not have good information to know 
whether it is more economical----
    Senator Ayotte. Right.
    Mr. Dodaro [continuing]. To give VA care or non-VA care.
    Senator Ayotte. So, what makes me worried about all this is 
I hear it, because for New Hampshire, really important, and the 
issue is this, is that if the VA almost wants to--I mean, I do 
not want them to want to undermine the access to non-VA care, 
because if we have good data, we may find down the line that 
this is actually a better way to serve veterans, to avoid wait 
lists, and the cost efficiencies may be there. But, if they do 
not follow through on this, it is almost a self-perpetuating 
failure----
    Mr. Dodaro. Yes.
    Senator Ayotte [continuing]. Which is contrary to what 
Congress wanted to happen in the reform bill. So, I appreciate 
your being here.
    Ms. Draper. Yes, we have several concerns. I mean, before 
the Act was passed, we had done prior work looking at non-VA 
care and we found that the payment to providers was slow or 
often inaccurate and community providers were really unwilling 
to take some of the VA patients.
    But, beyond that, it was intended to improve access to 
health care, the timeliness of care. However, there was no 
infrastructure in place to really monitor wait times, how long 
people are actually waiting to get into those community 
providers. So, we do have a number of concerns and that is one 
of the reasons that we put VA health care on the High-Risk 
List.
    Many people see this as a panacea for some of the access 
problems. I think there is a lot of work that needs to be done 
to make sure that the infrastructure is in place, to make sure 
that people are actually getting timely care through that 
system. And, I think another important point is the VA Health 
Care System is a difficult system to navigate. So, now you are 
introducing a second system for someone to navigate. So, it 
just compounds the problems that exist or could exist.
    So, we do have a number of mandates under that Act to 
really look at the issue. So, we will be doing that over the 
next couple of years, looking at the non-VA care.
    Senator Ayotte. I think it is really important, and I hope 
that you also look at, as you look at this, how embracing has 
the VA been of access to non-VA care, because, again, I worry 
that if the VA does not embrace giving veterans access to non-
VA care, then you can basically ensure that it really does not 
give veterans that option and it really becomes self-
perpetuating in terms of the conclusions that can be drawn from 
it.
    And, for veterans in New Hampshire, for example, they were 
on buses being shipped to Massachusetts and other places. If 
they can go to a local provider in their community, which, 
obviously, people have been able to do through other Federal 
programs, then that, in the end, if you look at the cost 
efficiencies of not paying for the transportation, of access to 
care in terms of quality--now, not everything is going to fit 
in that category, but a lot of care can.
    So, I am hopeful, in the long term, that we are not just 
allowing the VA to want to perpetuate their own system, but we 
really do look at what is best for the veterans. So, I know 
that you can be a very important voice on this. Thank you.
    Ms. Draper. And, just one other thing. I think we have seen 
a lot of variation, as we do with most other things related to 
VA, about how each facility is handling the non-VA care. And, 
so, that is something that, again, there are not standardized 
processes, and they also rolled out this program very quickly, 
so over a couple months, Choice Cards were mailed to veterans--
--
    Senator Ayotte. Yes, and they were not told anything about 
them and they were, like, all contacting our office. So, 
information, I think, is important, as well.
    I know I have gone over my time. I have a couple of 
additional questions that relate to the IRS and also the Earned 
Income Tax Credit (EITC) and Additional Child Tax Credit (ACTC) 
tax payments that I will submit for the record. I appreciate 
all that you do. Thank you.
    Chairman Johnson. Thank you, Senator Ayotte.
    I think you can tell by the number of questions, by the 
depth of the concern, how much, first of all, we appreciate the 
fact that you are highlighting the problems in the VA, and so 
you can, again, rest assured, you will have support and we will 
continue to be fully engaged, which is certainly what you 
mentioned in terms of the process to make sure these reforms 
are implemented across your High-Risk List.
    You will have full engagement by this Committee on all the 
items, but in particular, that you can rest assured that the VA 
system is going to be a top priority of this Committee.
    Just real quick, I do want to followup on IT acquisition. I 
have been meeting with the different agency heads within DHS 
and I am pleasantly surprised by the repeated, I guess, 
assurance that they are starting to look more at off-the-shelf 
solutions as opposed to having the government specify something 
and have through government contract, trying to have some IT 
solution created specifically for the government, which is not 
particularly efficient. Are you finding that not only within 
DHS, but is that a reoccurring theme? Is that something you 
support, or are there any dangers to that?
    Mr. Dodaro. Well, we have long said that commercial 
solutions, and even if you have to change your business process 
a bit, are more efficient than customized software development. 
So, that has been something we have been emphasizing over time 
to agencies.
    Dave Powner is our expert in the IT area and he has a good 
vantage point, across government, so I will ask him to 
elaborate on that.
    Mr. Powner. Yes, Senator Johnson. If you look at commercial 
solutions, that actually is one area you should look at instead 
of building. That is buy. There are a couple of things in our 
High-Risk Area that endorse that. If you look at incremental 
development, if we go with smaller, quicker deliveries, 
commercial solutions will be considered more heavily.
    The other area is cloud computing. We need to look more at 
cloud solutions and have providers actually provide those 
services to agencies instead of always building them and go 
more to the cloud. So, I think with commercial, both 
incremental and the cloud solutions, which is emphasized in our 
High-Risk Area, will be quite helpful.
    Chairman Johnson. Well, thank you. Again, I am really 
encouraging that. Coming from the private sector, I never liked 
reinventing the wheel, so it just makes perfect sense.
    Before we conclude the hearing, I do also want to just 
touch a little bit on cybersecurity. Our first hearing was on 
cybersecurity. That is a top priority of this Committee, is 
that first step. Can you just speak to the privacy that 
Americans are going to lose if we do not address this problem? 
Again, part of the reason we have not been able to pass 
cybersecurity legislation is because we have not been able to 
provide the liability protection to facilitate the needed 
exchange of information within the private sector, the private 
sector to the government, and back down.
    And, again, there are legitimate concerns of privacy. But, 
one of the points I tried to make in the hearing and I think we 
need to underscore, and I just want to get your comment on it, 
if we do not take that first step, if we do not allow that 
information sharing, which does allow us to share that threat 
signature which can prevent attacks--it is not a panacea. It is 
not going to protect everything. But, the more attacks we can 
prevent, we are protecting Americans' privacy. Can you just 
comment on that?
    Mr. Dodaro. First of all, I think people need to understand 
that the amount of information that is collected, disseminated, 
and stored in the Internet by most projections is expected to 
double and triple every 2 years going forward. So, you have a 
tremendous amount of information available now, but the storage 
capacity is--such that so much more information is going to be 
collected and it is going to be shared and disseminated, 
including personally identifiable information, over time.
    The only way to deal with this, and we have been advocating 
sharing, partnerships with public-private sector for many years 
now, since we have been focused on this area, and people have 
to understand that the best safeguard is continuous monitoring 
and diagnostics and preventing these events from occurring.
    Greg Wilshusen is our expert in this area. I will ask him 
to elaborate on it. But, we will do whatever we can to help 
people understand that information, more information is going 
to be available. The question is how best to protect that from 
getting into unauthorized hands and information sharing is a 
critical component of that protection.
    Chairman Johnson. I would also, quickly, like to point out 
that every time you agree to the privacy statement of an 
application, you are giving up so much information that is 
widely disseminated in the private sector, and so people need 
to also understand that.
    Sir.
    Mr. Wilshusen. Yes. And, I would just like to say, too, 
that the need for sharing information, particularly about 
actionable cyberthreat information and incident information, is 
really critical to help better protect our critical 
infrastructures.
    A couple years ago, we did a report which identified among 
our private sector partners that they said that their 
expectations of the public-private partnership for protecting 
critical infrastructure, that 98 percent of them indicated that 
receiving actionable cyberthreat information and incident 
information from the Federal Government was of a great need for 
them. However, only 27 percent of the respondents to our 
survey, who were the critical infrastructure owners and 
operators, said that they were actually receiving that type of 
information to a satisfactory degree from the Federal partners. 
So, it is critical that the information sharing processes be 
improved.
    Chairman Johnson. One of the hangups always has been that 
liability protection, and I am not the person to say exactly 
what that liability protection ought to be, but I can say that 
the metric is going to be if we pass something with liability 
protection, the success or failure is whether or not that 
information actually is shared. I mean, can you speak a little 
bit in terms of the reluctance of private sector companies to 
share the information the threats they really do feel in terms 
of lawsuits if they share that information, and the reluctance, 
as a result, to share it without really strong liability 
protection.
    Mr. Wilshusen. Well, certainly, I think, liability 
protection is one of the areas that is an inhibitor to some of 
the private sector companies. Our reviews have also shown is 
that often when private sector companies do provide information 
to their Federal counterparts, they do not really receive 
anything in return. It is like giving this information and 
there is not really getting much in return for that. So, they 
are somewhat of a disincentive to provide that information.
    In addition, it is not always clear. They want to make sure 
that the information they do provide is sufficiently anonymized 
in order to allow it to be used by government agencies in an 
appropriate manner and not necessarily be shared with others.
    Chairman Johnson. Let me talk about that personal 
information. In terms of preventing further attacks, in other 
words, that threat signature, there is really no reason to have 
personal information attached to that information that is 
shared, correct?
    Mr. Wilshusen. I would say, generally, that would be the 
case.
    Chairman Johnson. But, if you actually want to solve the 
crime, if you want to trace back, where did that hacking come 
from--which, quite honestly, to prevent further attacks, it 
would be awful nice to find out who these bad actors are, who 
the criminals are--that is where you need some personal 
information, potentially. How much can we limit that?
    Mr. Wilshusen. Well, part of the what you would need would 
be, for example, the IP addresses from which these attacks are 
originating. And, so, while that may not be considered 
personally identifiable information, it is a key part of trying 
to trace attacks and the sources of those attacks.
    Chairman Johnson. OK. Oh, Senator Carper is back. He has 
returned. I have no further questions. Senator Carper.
    Senator Carper. Thanks so much.
    Some days are busier than others. This is a day where, when 
my train finally got here, I had the opportunity to participate 
with you and Senator Johnson and others in a press conference 
announcing the updated list the High-Risk List. And then we 
have almost simultaneously a markup and we are voting on 
legislation, part of which I authored, in the Finance 
Committee, and defending, and the Environment and Public Works 
Committee is having a hearing as we speak on clean air 
legislation, which is very important to my State, which is 
threatened by rising seas, and this important hearing. So, 
there is a lot going on. People from Delaware want to see me. 
And, so, I apologize for being in and out.
    People sometimes say to me, I do not know if they say to 
Ron, but they say, ``Can we come to Washington and meet with 
you?'' And, I say, my life here is frenetic. Why do we not meet 
in Delaware? I go there every night. But, thank you for bearing 
with us.
    I want to ask you a question about the Federal workforce, 
but before I do, let me preface it by making this observation. 
One of the pieces of cybersecurity legislation that this 
Committee adopted, reported out, and was ultimately signed into 
law by the President was one that strengthens the ability of 
the Department of Homeland Security to hire people, well-
qualified people, to better enable them to help defend not only 
the Federal dot-gov world, but also to help businesses, the 
private sector and others, to defend their personally 
identifiable information, their intellectual property, and to 
give the Homeland Security Department actually the ability to 
do some of the hiring and retention for employees that they 
have not been able to do.
    When I was Governor of Delaware, we used to lament the fact 
that on IT projects, we would hire people to work in the IT 
world for us, train them, they would become better and more 
proficient, and then they would get hired away. And, the same 
kind of thing actually happens with the Department of Homeland 
Security with their cyber warriors and they have asked for the 
tools to enable them to hire good people, retain people, and we 
have done that, and I am pleased the President has signed that. 
It is one of three or four pieces of legislation that has 
actually come through this Committee, signed into law last 
year, that will strengthen our cybersecurity.
    But, with respect to the Federal workforce, as your report 
highlights, there are gaps in mission critical skills in the 
Federal workforce and they have significant impact on many of 
the high-risk issues. Unfortunately, efforts to identify and 
address current and emerging critical skill gaps have been slow 
and not fully successful. Addressing these gaps needs to be a 
priority, given their impact on so many important issues facing 
our country.
    Let me just ask what strategies you think have been most 
successful. What strategies have been most successful in 
identifying and addressing those skill gaps, and how can we 
help to ensure that the Office of Personnel Management--and 
other agencies, too--are using the best strategies and giving 
this issue the focus that it deserves?
    Mr. Dodaro. First, I think the efforts need to recognize 
the skill gaps. I mean, we have pointed out this to a number of 
agencies and it is almost like they are not identifying them 
proactively on their own as much or using available authorities 
for retention and recruitment that could be used in the 
process. So, the first thing is sort of an awareness they have 
an issue, and also planning ahead for the future to be able to 
do this. At the same time you have critical skill gaps, you 
also have succession planning problems throughout the Federal 
Government because of the retirement of the Baby Boom 
generation. So, you have a dual problem that needs to be dealt 
with.
    Chris Mihm is our expert in these areas. I will ask him to 
elaborate on some specific best practices. But, this area 
worries me as much as any on the list because it really goes to 
the heart of the government's ability to effectively function, 
and you cannot do it without the right people, whether you are 
talking about petroleum engineers and making sure we are 
getting our right oil and gas estimates, cost estimating 
expertise at NASA, the right people in a lot of these different 
departments and agencies, cybersecurity you mentioned. So, it 
is a real critical issue. I am glad that you asked the 
question.
    Senator Carper. All right. Thank you.
    Mr. Dodaro. Chris.
    Mr. Mihm. Thank you, Senator. I agree very much with the 
preface of your question, that many of the High-Risk Issues 
that we find, a root cause of that is a critical skills gap in 
agencies. You had a discussion this morning about the problems 
over at VA. One of the five areas that you have heard about is 
a skills gap issue associated with training of staff over 
there. Skills gaps are certainly a big part of the acquisition 
area, in the acquisition workforce, notwithstanding an awful 
lot of attention that Congress and other agencies have given to 
that. The IT area, as you referenced in your question.
    When we see the successful efforts to get at this, it is 
actually the two things the Comptroller General just mentioned. 
First, it is heavy use of data analytics. There is a wealth of 
Federal personnel information that is in our personnel files 
that is not being effectively mined. We talk all the time about 
big data. One of the big data things that we are not 
effectively exploiting is Federal personnel information, 
stripping out all the PII, of course. But, it can tell about 
career paths and training and development and exactly what are 
the succession planning challenges that an agency should be 
expecting. So, mining this big data that is out there on 
Federal personnel is one of the first key steps.
    The second, as the Comptroller General also mentioned, is 
really effective strategic human capital planning. All too 
often in agencies, we go in and they seem to have a succession 
planning approach that goes under the very inelegant name of 
what is called ``truck sensitive,'' meaning if a truck hit the 
person, they know who is next in line. They are not thinking 
very far----
    Senator Carper. I like that, truck sensitive.
    Mr. Mihm. Well, unless you are the one that is being hit 
on.
    Senator Carper. Senator, what did you get out of your 
hearing today? Well, truck sensitive.
    Mr. Mihm. Well, here to contribute.
    Senator Carper. Among other things. [Laughter.]
    Mr. Mihm. Well, but they are not thinking, what are the 
knowledge and skills that we are going to need to be effective 
5, 10, and even 15 years in the future. We need to start 
recruiting on that now. We need to start training based on 
those skills now. We need to start developing those skills now. 
We cannot have a government where the working assumption is, 
the key to our future success is to be more like we are today. 
Many of the personnel systems that we have, certainly the human 
capital planning systems, seem to be implicit on that, is that 
if we just hire the same people that were just like us, we are 
going to be successful in the future. That is not going to be 
workable in the context that we face today.
    Senator Carper. All right. Thank you.
    Last question and I will make it real quick and I will ask 
for a short answer. This year's High-Risk Report discusses 
improvement in a number of High-Risk Areas. We are grateful for 
that. Unfortunately, no issues, I think, were removed from the 
list from last year. Are there issues on the list that you 
think are within striking distance of being removed from the 
list, maybe, by 2017? And, for those issues, are there any 
things that come to mind that you think are the final reforms 
that are needed? Just touch on one or two, if you would.
    Mr. Dodaro. Sure. I am very pleased with the progress that 
we have made working with NASA on their acquisitions area. The 
big challenge now is to get as many people trained up as 
possible in their cost estimating and using Earned Value 
Management techniques and issues.
    The big hang-up we have had with NASA is to agree on an 
approach to evaluate the design sophistication of their 
technology and the stability of it early in the process, before 
it develops along time, and they have implemented that for a 
number of their smaller projects. The big issue will be, can 
they extend that on their big major projects, like the James 
Webb telescope, the Space Launch System, the Orion capsule. So, 
we have been working with them. But, they have met, right now, 
three of the five criteria and they have top-level attention. 
They have a good plan. The question is whether they can execute 
over a period of time.
    I also believe the Department of Homeland Security is 
within this if they stay the course in those areas. They really 
have to improve their acquisition area, though. I am really 
concerned about that. That is one that they have been late in 
implementing. And, they have to improve their internal controls 
environment and deal with their morale issues over there. I 
mean, those are three. You need a workforce that is more 
engaged and feeling better about themselves to be successful 
over a period of time. You cannot have the situation that they 
have right now and be successful. No business would be 
successful with that level of dissatisfaction and no government 
agency will, as well. But, so, there are challenges there in 
those areas.
    So, those are two that I would mention off the top of my 
head that are successful and, I think, doable within a 
reasonable period of time.
    Senator Carper. Good. Mr. Chairman, I would just say that, 
in closing, what Gene has said reminds me oh how important the 
work is we have done to try to vet and clear and send on to the 
Senate the leadership team that the President has asked for and 
Jeh Johnson has asked for in that Department. There is one more 
that we are working on, a fellow named Russ Deyo, who we have a 
lot of respect for. He has been nominated for the No. 3 
position there, for management, and it is critically important 
that he be there.
    I will close with--you mentioned NASA, and Mr. Chairman, 
you may have heard this story, and Tammy, you may have heard 
this story. A friend of mine was going through visiting NASA 
one night. Most of the people had left and gone home for the 
day. This one guy was still there working, and he was the 
janitor. And my friend said to him, ``What do you do here? What 
is your job?'' And, the man said, ``I am helping to put a man 
on the moon.''
    The folks that are working at NASA to help make sure that 
they cleanup their performance with respect to high-risk, they 
are helping to put men and women not on the moon, but all over 
the galaxy and to do good things for our country. So, that is 
kind of making it real. Thanks so much.
    Chairman Johnson. Well, we certainly share that commitment 
to make sure the agencies have the best people working for 
them, and I continue--I have said this repeatedly--I am very 
impressed with the people who work for the Federal Government. 
Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman, Ranking Member. I 
did not expect to have a chance to return from the Budget 
Committee, but, indeed, I am here, and I appreciate the chance 
for another opportunity to ask a question that I was going to 
submit for the record.
    GAO found that local VA facilities are carrying out 
processes inconsistently, including those dealing with the 
provision of medical care. A GAO report from November 2014 
found that about 10 percent of veterans who received health 
care services through the VA were diagnosed with major 
depressive disorder, and of those, 94 percent were prescribed 
an antidepressant. VA policy states that antidepressant 
treatment must be consistent with the VA's current clinical 
practices guideline. However, the GAO's review of medical 
records identified deviations from those guidelines for most 
veterans reviewed, and I will quote the report now. ``As a 
result, VA does not know the extent to which veterans with 
major depressive disorder who have been prescribed 
antidepressants are receiving care as recommended in the 
clinical practice guidelines and, whether appropriate actions 
are taken by VAMCs to mitigate potentially significant risks to 
veterans.''
    In other words, the VA does not know if veterans with 
severe mental illnesses are getting the correct care. This is 
completely unacceptable, and I am extremely concerned that the 
VA may have a similar blind spot regarding the appropriate 
standard of care for mental health patients at the Tomah VA, as 
I have outlined earlier today.
    Indeed, in a tragic example last August, former Marine 
Jason Simcakoski died as an inpatient at the Tomah facility 
from mixed drug toxicity. At the time of his death, he 
reportedly was on 15 different prescription drugs, including 
antipsychotics, tranquilizers, muscle relaxants, and opioid 
painkillers. There are serious questions as to whether Mr. 
Simcakoski was receiving the correct standard of care, and your 
reports would indicate that the VHA's mental health treatment 
programs, including the drugs prescribed to patients, are 
deeply flawed.
    So, I would love it if you could take a moment to explain 
these findings from the November 2014 GAO report in further 
detail and provide recommendations regarding how the VHA can 
fix this problem as soon as possible.
    Mr. Dodaro. Debbie.
    Ms. Draper. Sure. We looked at a sample of medical records 
from six different VA Medical Centers and we did find exactly 
what you had talked about, and I think this really still gets 
at the issue of why we are putting VA Health Care on the High-
Risk List. There are issues around oversight and 
accountability. Training is an issue, looking at how practices 
play out at the local level. Again, there are inconsistent 
processes and ambiguous policy.
    So, in this report, we did make a number of recommendations 
to VA, and one was to implement processes to review the data 
and assess deviations from recommended care, because it was a 
large number of the records that we reviewed, they deviated 
from the clinical practice guideline, and that included things 
like a necessary initial review of the situation and then a 
followup review. Those were not conducted as they were outlined 
in the clinical practice guideline.
    We also made recommendations--because in that same report, 
we looked at the template that was used to complete information 
about suicides and that information was also found to be 
incomplete. So, what happens is that it really diminishes VA's 
ability because they do not have complete data when they 
develop processes or initiatives on suicide prevention. So, we 
made a number of recommendations related to ensuring the 
completeness of that information, as well.
    Chairman Johnson. Thank you, Senator Baldwin.
    Mr. Dodaro, again, thank you and all of the associates from 
the GAO that have come here and provided some good information 
for all your good works. You can tell by the level of 
attendance at this hearing, you can tell by the level of 
engagement--it might be an overstatement, but this is this 
Committee's favorite agency. You do so much good work, and we 
truly appreciate that.
    From my standpoint, one of the major take-aways, of course, 
is we are going to be supportive of making sure the 
recommendations of the VA get implemented as quickly as 
possible. But, also, we are looking at what we can do to 
develop a process to ensure implementation of as many of your 
recommendations, or all of your recommendations, across the 
agency. So, we want to work very closely with you on that 
process.
    I was handed an interesting little fact. I talked about how 
you actually were suffering budget cuts. I guess last year, GAO 
had the fewest number of employees since World War II. Now, the 
Federal Government has kind of grown a little bit since World 
War II, so I think we would like to give you some more 
resources and some more associates to continue your good work 
and expand it so we can implement your recommendations.
    So, again, thank you for your testimony. Thank you for all 
your good work.
    This hearing record will remain open for 15 days, until 
February 26 at 5 p.m., for the submission of statements and 
questions for the record.
    Senator Carper. Mr. Chairman, just one quick closing 
comment. If you read the Preamble--in fact, we all learned it 
as kids in school, the Preamble to the Constitution--and one 
part of it says, ``In order to form a more perfect Union''--
``In order to form a more perfect Union.'' It does not say, 
``In order to form a perfect Union,'' but it does say, ``In 
order to form a more perfect Union.''
    What you and the folks that are sitting there behind you in 
the front rows of this hearing room are trying to do is to help 
us form a more perfect Union. We know we will never be perfect. 
But we strive for perfection, because we know everything that 
we do, we can do better.
    This is a team sport. You are critical members of the team. 
We like to think that we are, as well. Others within the 
agencies spread across the government, the President, OMB, we 
are all members of the team, and it is important that we pull 
together in the same direction, because if we do, some amazing 
things can happen. In fact, they already have, and we need more 
of that. Thank you so much.
    Mr. Dodaro. Thank you very much.
    Chairman Johnson. Thank you, Senator Carper.
    In manufacturing, good operations always engage in 
continuous improvement. GAO helps the government continuously 
improve, so, again, we thank you.
    This hearing is adjourned.
    [Whereupon, at 12:01 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
